APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma, Remanding with
Instructions to Dismiss (April 1, 2021) .................... 1a
District Court of Seminole County,
State of Oklahoma, Findings of Fact and
Conclusions of Law (Signed October 23, 2020,
Filed October 26, 2020) ........................................... 20a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 25, 2020) .................................................... 36a

App.1a
OPINION OF THE
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, REMANDING
WITH INSTRUCTIONS TO DISMISS
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
KADETRIX DEVON GRAYSON,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2018-1229
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION REMANDING
WITH INSTRUCTIONS TO DISMISS
KUEHN, PRESIDING JUDGE:
¶ 1 Kadetrix Devon Grayson was tried by jury
and convicted of Counts I and II, First Degree Murder,
and Count III, Possession of a Firearm After Former
Conviction of a Felony, in the District Court of Semi-

App.2a
nole County, Case No. CF-2015-370. Following the
jury’s recommendation, the Honorable George Butner
sentenced Appellant to life imprisonment on each of
Counts I and II, to run consecutively, and ten (10)
years imprisonment on Count III, to run concurrently. Appellant must serve 85% of his sentences on
Counts I and II before becoming eligible for parole
consideration. Appellant appeals from these convictions
and sentences.
¶ 2 Appellant raises five propositions of error in
support of his appeal:
1.

Counsel was ineffective because he refused
to adequately communicate with Mr. Grayson
and allow Mr. Grayson to assist in his own
defense.

2.

Counsel was ineffective for failing to question
the medical examiner regarding Ms. Gokey’s
broken ribs.

3.

The trial court lacked jurisdiction because
all parties allegedly involved were Native
American and the crimes allegedly happened
on Seminole Nation Tribal Territory.

4.

The trial court abused its discretion in
refusing to give a “credibility of informers”
instruction.

5.

The accumulation of error in this case
deprived Mr. Grayson of due process of law
and a reliable sentencing proceeding in violation of the Fourteenth Amendment to the
United States Constitution and Article II,
§§ 7 and 20 of the Oklahoma Constitution.

App.3a
¶ 3 In Proposition III Appellant claims the State
of Oklahoma did not have jurisdiction to prosecute
him. He relies on 18 U.S.C. § 1153 and McGirt v.
Oklahoma, 591 U.S. ___, 140 S. Ct. 2452 (2020).
¶ 4 On August 25, 2020, this Court remanded
this case to the District Court of Seminole County for
an evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on
two issues: (a) Appellant’s status as an Indian; and
(b) whether the crime occurred within the boundaries
of the Seminole Nation Reservation. Our Order provided that, if the parties agreed as to what the evidence would show with regard to the questions presented, the parties could enter into a written stipulation setting forth those facts, and no hearing would
be necessary.
¶ 5 On October 26, 2020, the District Court filed
its Findings of Fact and Conclusions of Law. The
parties agreed by stipulation that Grayson is a member of the Seminole Nation, with some Indian blood,
and was at the time of the crimes, and that the
Seminole Nation is a federally recognized tribe.
¶ 6 The District Court found that Congress
established a reservation for the Seminole Nation of
Oklahoma. As the State took no position on the
issue, the District Court found that these facts are
uncontroverted:
1.

The Treaty of Payne’s Landing, 7 Stat. 368
(1832) (1832 Treaty), provided that the Seminoles would relinquish all claims to the lands
they occupied in Florida and emigrate to
“the country assigned to the Creek, west of
the Mississippi River.” Id. art. I. The 1832

App.4a
Treaty was made to implement the Indian
Removal Act, Pub. L. 21-148, 4 Stat 411
(1830).
2.

The Treaty with the Creeks, 7 Stat. 417 (1833
Creek Treaty), provided that the Seminole
Nation shall “have a permanent and comfortable home” by themselves on lands set
aside for the Creek Nation. Id. art. IV. The
Seminoles and the United States entered into
the Treaty with the Seminole, confirming
the Creek Treaty’s provisions on March 28,
1833. Treaty with the Seminoles, art. IV, 7
Stat. 423 (1833) (1833 Seminole Treaty). The
Seminole Nation’s desire for genuine political
autonomy resulted in the Treaty with the
Creeks and Seminoles, 11 Stat. 699 (1856)
(1856 Treaty). The 1856 Treaty, entered into
on August 7, 1856, set forth specific boundaries for the Seminole Nation Reservation.
Id. art. 1.

3.

Ten years later, the United States and the
Seminole Nation entered into the Treaty
with the Seminole, 14 Stat. 755 (1866) (1866
Treaty). This redefined the boundaries of the
Seminole Nation Reservation. For payment
of the fixed sum of $325,362.00, the Seminoles
ceded and conveyed the entirety of their
previous territory to the United States,
guaranteed to them under the 1856 Treaty.
Id. art. 3. The Treaty established a new
reservation, carved from part of the western
half of the Creek Nation Reservation, to “constitute the national domain of the Seminole
Indians.” Id. art. 3. These boundaries were:

App.5a
Beginning on the Canadian River where
the line dividing the Creek lands according
to the terms of their sale to the United
States by their treaty of February 6, 1866,
following said line due north to where
said line crosses the north fork of the
Canadian River; thence up said north fork
of the Canadian River a distance sufficient to make two hundred thousand
acres by running due south to the
Canadian River; thence down said
Canadian river to the place of beginning.
Id. art. 3.
4.

The precise boundaries of the Reservation
set forth in the 1866 Treaty depended on
the determination of the location of “the line
dividing the Creek lands according to the
terms of their sale to the United States by
their treaty of February 6, 1866. . . . ” 1866
Treaty, art. 3, 14 Stat. 755. The original line
was surveyed by Rankin in 1867 but never
formally approved. In 1871, the Department
of the Interior instead adopted the line from
the Bardwell survey, which was seven miles
west of the Rankin line. This discrepancy
led to considerable uncertainty for Seminole
Nation citizens living within the disputed
corridor. In 1881, the United States purchased
those lands from the Creek Nation and
included them in the Seminole Reservation.
Seminole Nation v. United States, 316 U.S.
310, 313 (1942); 22 Stat. 257, 265 (1882).

5.

The boundaries of the Seminole Nation of
Oklahoma Reservation remain those defined

App.6a
in the 1866 Treaty, plus the land purchased
from the Creek Nation in 1881.
¶ 7 The District Court found, and we agree, that
the absence of the word “reservation” in the 1866
Treaty is not dispositive. McGirt, 140 S. Ct. at 2461.
And subsequent acts of Congress referred to the
Seminole Reservation. See, e.g., Act of March 3, 1891,
26 Stat. 989, 1016 (1891); 11 Cong. Rec. 2351 (1881).
The record supports the District Court’s findings that
by treaty and purchase, the United States established
a reservation for the Seminole Nation of Oklahoma.
¶ 8 The District Court found that Congress has
not disestablished the Seminole Nation Reservation.
After Congress has established a reservation, only
Congress may disestablish it by clearly expressing its
intent to do so; usually, this will require “an explicit
reference to cession or other language evidencing the
present and total surrender of all tribal interests.”
McGirt, 140 S. Ct. at 2463 (internal quotation omitted).
The District Court found no explicit indication or
expression of Congressional intent to disestablish the
Seminole Reservation. The State took no position on
this issue, and the Court found:
1.

Allotment did not disestablish the Reservation. Allotment of Seminole tribal lands was
formally authorized in 1893. Act of March 3,
1893, 27 Stat. 612, at 645. The Dawes Commission and the Seminole Nation reached an
allotment agreement on December 16, 1897,
ratified by Congress on July 1, 1898. Act of
July 1, 1898, 30 Stat. 567, at 567. This created
three land classes based on appraised value;
each tribal member would be allotted a
share of land of equal value, with sole right

App.7a
of occupancy; the allotments were inalienable
until the date of the patent, with some
leases allowed. Id. Nowhere in either the
allotment statute or the agreement is there
language indicating an intent to disestablish the Reservation. There is no mention of
cession, a fixed sum in return for total
surrender of tribal claims, or any other text
supporting disestablishment. As McGirt made
clear, allotment may be a step towards
disestablishment but is not itself a clear
expression of the intention to disestablish a
reservation. McGirt, 140 S. Ct. at 2465; see
also Mattz v. Arnett, 412 U.S. 481, 497
(allotment entirely consistent with continued
reservation status).
2.

Although Congress has, from time to time,
imposed restrictions on the sovereignty of
the Seminole Nation, these restrictions did
not disestablish the Reservation. For example,
the Act of March 3, 1903, stated that the
tribal government of the Seminole Nation
“shall not continue” past March 4, 1906. Act
of March 3, 1903, 34 Stat. 982, 1008 (1903).
However, in March 1906, Congress did not
terminate the Seminole Nation tribal government. Instead, in the Five Tribes Act,
Congress recognized that the existence of
the Seminole Nation tribe and tribal government “are hereby continued in full force
and effect for all purposes authorized by
law.” Five Tribes Act, 34 Stat. 137, 148 (1906).
This Act restricted the tribal government’s
power, but it neither terminated the Nation

App.8a
nor expressly indicated an intent to disestablish the Reservation.
3.

Oklahoma statehood did not disestablish the
Reservation. The Oklahoma Enabling Act, 34
Stat. 267 (1906), authorized Oklahoma statehood. It contains nothing suggesting that,
by allowing statehood, Congress intended
to disestablish the Seminole Reservation.
The Act expressly prohibited the Oklahoma
constitution from limiting the federal government’s authority to make laws or regulations respecting Indians living within the
new state’s boundaries. Id., 34 Stat at 267-68.
Congress never disestablished the Seminole
Reservation, and it currently exists.

4.

The parties stipulated to the current boundaries of the Seminole Nation Reservation.
The parties further stipulated that the
location of the crimes charged was within
the historical boundaries of the Seminole
Nation of Oklahoma Reservation.

5.

The District Court adopted a map, attached
as Exhibit A to the Seminole Nation’s brief
filed in the District Court, showing those
stipulated boundaries. The District Court
first noted that, with one deviation, the
borders of Seminole County set forth in the
Oklahoma Constitution are defined by
reference to the Seminole Reservation boundaries:
Beginning at a point where the east
boundary line of the Seminole nation
intersect[s] the center line of the South

App.9a
Canadian River; thence north along the
east boundary line of said Seminole nation
to its intersection with the township
line between townships seven and eight
North; thence east along said township
line to the southwest corner of section
thirty-five, township eight North, range
eight East; thence north along the section
line between sections thirty-four and
thirty-five, in said township and range,
projected to its intersection with the
centerline of the North Canadian River;
thence westward along the center line of
said river to its intersection with the east
boundary line of Pottawatomie County;
thence southward along said east boundary line to its intersection with the
centerline of the South Canadian River;
thence down along the center line of said
river to the point of beginning. Wewoka
is hereby designated the County Seat of
Seminole County.
Okla. Const. art. 17, § 8.
¶ 9 The District Court described the Reservation
northeastern boundary thus: County lines depart from
the Reservation border, beginning at the point where
the Reservation’s eastern boundary intersects with
the line between townships seven and eight north
(just southwest of the intersection of East/West
Rd. 131 and State Highway 56). From that point, the
County line runs due east for slightly less than three
miles (until reaching the southwest corner of section
35 of Township 8 North, Range 8 East). Then the
County line runs due north until the midpoint of the

App.10a
North Canadian River, at which point the County
line runs along the river back toward the Seminole
Nation.
¶ 10 The District Court found that Congress has
never, by treaty or statute, either erased the Seminole
Nation Reservation boundaries or expressed an intent
to do so or disestablish the Reservation otherwise.
The record supports the District Court’s findings that
the United States has not disestablished the Seminole
Nation of Oklahoma Reservation.
¶ 11 After making these findings of fact, the District Court reached the following conclusions of law:
1.

The Defendant/Appellant is an “Indian” as
defined by the Oklahoma Court of Criminal
Appeals.

2.

By applying the analysis set out in McGirt,
Congress established a reservation for the
Seminole Nation of Oklahoma.

3.

By using the analysis set out in McGirt, Congress has not explicitly erased the reservation boundaries and disestablished the
Seminole Nation Reservation.

4.

The Seminole Nation of Oklahoma is “Indian
Country” for purposes of criminal law jurisdiction.

5.

The Crimes that Defendant/Appellant was
convicted of occurred in Indian Country.

¶ 12 In its Supplemental Brief, Appellee does
not contest the District Court’s findings and conclusions. The record supports the findings of fact, and
we adopt the conclusions of law. Appellant is a mem-

App.11a
ber of the Seminole Nation, and the crimes were
committed within the boundaries of the Seminole
Nation Reservation. The ruling in McGirt applies to
this case. The District Court of Seminole County did
not have jurisdiction to try Appellant.
¶ 13 Accordingly, Proposition III is granted.
Propositions I, II, IV, and V are moot.
DECISION
The Judgment and Sentence of the District
Court of Seminole County is VACATED, and the
case is REMANDED with instructions to DISMISS.
Pursuant to Rule 3.15, Rules of the Oklahoma Court
of Criminal Appeals, Title 22, Ch.18, App. (2020), the
MANDATE is STAYED for twenty (20) days from
the delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
SEMINOLE COUNTY THE HONORABLE
GEORGE BUTNER, DISTRICT JUDGE
ATTORNEYS AT TRIAL
Larry R. Monard
P.O. Box 471
Anadarko, Ok 73005-471
Counsel for Defendant
Paul B. Smith
District Attorney
Seminole County
120 S. Wewoka
Wewoka, Ok 74884
Counsel for the State
Attorneys on Appeal
Bobby G. Lewis

App.12a
Homicide Direct Appeals Div.
Okla. Indigent Defense Sys.
P.O. Box 926
Norman, Ok 73070
Counsel for Appellant
Mike Hunter
Attorney General of Okla.
Jennifer L. Crabb
Asst. Attorney General
313 Ne 21st Street
Oklahoma City, Ok 73105
Counsel for Appellee
Opinion by: Kuehn, P.J.
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur
Hudson, J.: Concur

App.13a
LUMPKIN, JUDGE,
CONCURRING IN RESULTS
¶ 1 Bound by my oath and the Federal-State
relationships dictated by the U.S. Constitution, I
must at a minimum concur in the results of this opinion. While our nation’s judicial structure requires me
to apply the majority opinion in the 5-4 decision of
the U.S. Supreme Court in McGirt v. Oklahoma, ___
U.S. ___, 140 S. Ct. 2452 (2020), I do so reluctantly.
Upon the first reading of the majority opinion in
McGirt, I initially formed the belief that it was a
result in search of an opinion to support it. Then
upon reading the dissents by Chief Justice Roberts
and Justice Thomas, I was forced to conclude the
Majority had totally failed to follow the Court’s own
precedents, but had cherry picked statutes and treaties,
without giving historical context to them. The Majority
then proceeded to do what an average citizen who
had been fully informed of the law and facts as set
out in the dissents would view as an exercise of raw
judicial power to reach a decision which contravened
not only the history leading to the disestablishment
of the Indian reservations in Oklahoma, but also
willfully disregarded and failed to apply the Court’s
own precedents to the issue at hand.
¶ 2 My quandary is one of ethics and morality.
One of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.14a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would
trade and associate. I just cannot get through my
mind how this bill can possibly be made to operate in
a State of thickly-settled population. (emphasis
added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.15a
¶ 3 The question I see presented is should I
blindly follow and apply the majority opinion or do I
join with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
¶ 4 My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice
Roberts and Justice Thomas eloquently show the
Majority’s mischaracterization of Congress’s actions
and history with the Indian reservations. Their dissents
further demonstrate that at the time of Oklahoma
Statehood in 1907, all parties accepted the fact that
Indian reservations in the state had been disestablished
and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any
disrespect to our Federal-State structure. I simply
believe that when reasonable minds differ they must
both be reviewing the totality of the law and facts.

App.16a
LEWIS, JUDGE,
SPECIALLY CONCURRING
¶ 1 Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I specially concur.
Following the precedent of McGirt v. Oklahoma, 140
S. Ct. 2452 (2020), Oklahoma has no jurisdiction over
an Indian who commits a crime in Indian Country, or
over any person who commits a crime against an
Indian in Indian Country. This crime occurred within
the historical boundaries of the Seminole Nation
Reservation and that Reservation has not been
expressly disestablished by the United States Congress.
Additionally, Appellant is an Indian, thus the jurisdiction is governed by the Major Crimes Act found in
the United States Code.
¶ 2 Oklahoma, therefore, has no jurisdiction,
concurrent or otherwise, over Appellant in this case.
Thus, I concur that this case must be reversed and
remanded with instructions to dismiss. Jurisdiction
is in the hands of the United States Government.

App.17a
HUDSON., JUDGE,
CONCURRING IN RESULTS
¶ 1 Today’s decision applies McGirt v. Oklahoma,
140 S. Ct. 2452 (2020) to the facts of this case and
dismisses convictions from Seminole County for two
counts of first degree murder and one count of felonious
possession of a firearm. I concur in the results of the
majority’s opinion based on the stipulations below
concerning the Indian status of Appellant and the
location of these crimes within the historic boundaries
of the Seminole Reservation. Under McGirt, the
State cannot prosecute Appellant because of his
Indian status and the occurrence of the murders and
felonious possession of firearm within Indian Country
as defined by federal law. I therefore as a matter of
stare decisis fully concur in today’s decision.
¶ 2 I disagree, however, with the majority’s adoption as binding precedent that Congress never disestablished the Seminole Reservation. Here, the State
took no position below on whether the Seminole
Nation has, or had, a reservation. The State’s tactic
of passivity has created a legal void in this Court’s
ability to adjudicate properly the facts underlying
Appellant’s argument. This Court is left with only
the trial court’s conclusions of law to review for an
abuse of discretion. We should find no abuse of discretion based on the record evidence presented. But
we should not establish as binding precedent that
the Seminole Reservation was never disestablished
based on this record.
¶ 3 Finally, I write separately to note that
McGirt resurrects an odd sort of Indian reservation.
One where a vast network of cities and towns dominate

App.18a
the regional economy and provide modern cultural,
social, educational and employment opportunities for
all people on the reservation. Where the landscape is
blanketed by modern roads and highways. Where
non-Indians own property (lots of it), run businesses
and make up the vast majority of inhabitants. On its
face, this reservation looks like any other slice of the
American heartland—one dotted with large urban
centers, small rural towns and suburbs all linked by
a modern infrastructure that connects its inhabitants,
regardless of race (or creed), and drives a surprisingly
diverse economy. This is an impressive place—a
modern marvel in some ways—where Indians and
non-Indians have lived and worked together since at
least statehood, over a century.
¶ 4 McGirt orders us to forget all of that and
instead focus on whether Congress expressly disestablished the reservation. We are told this is a cut-anddried legal matter. One resolved by reference to
treaties made with the Five Civilized Tribes dating
back to the nineteenth century. Ignore that Oklahoma
has continuously asserted jurisdiction over this land
since statehood, let alone the modern demographics
of the area.
¶ 5 The immediate effect under federal law is to
prevent state courts from exercising criminal jurisdiction over a large swath of Greater Tulsa and
much of eastern Oklahoma. Yet the effects of McGirt
range much further. Crime victims and their family
members in a myriad of cases previously prosecuted
by the State can look forward to a do-over in federal
court of the criminal proceedings where McGirt applies.
And they are the lucky ones. Some cases may not be
prosecuted at all by federal authorities because of

App.19a
issues with the statute of limitations, the loss of evidence, missing witnesses or simply the passage of
time. All of this foreshadows a hugely destabilizing
force to public safety in eastern Oklahoma.
¶ 6 McGirt must seem like a cruel joke for those
victims and their family members who are forced to
endure such extreme consequences in their case. One
can certainly be forgiven for having difficulty seeing
where—or even when—the reservation begins and
ends in this new legal landscape. Today’s decision on
its face does little to vindicate tribal sovereignty and
even less to persuade that a reservation in name only
is necessary for anybody’s well-being. The latter
point has become painfully obvious from the growing
number of cases that come before this Court where
non-Indian defendants are challenging their state
convictions using McGirt because their victims were
Indian.
¶ 7 Congress may have the final say on McGirt.
In McGirt, the court recognized that Congress has
the authority to take corrective action, up to and
including disestablishment of the reservation. We
shall see if any practical solution is reached as one is
surely needed. In the meantime, cases like Appellant’s
remain in limbo until federal authorities can work
them out. Crime victims and their families are left to
run the gauntlet of the criminal justice system once
again, this time in federal court. And the clock is
running on whether the federal system can keep up
with the large volume of new cases undoubtedly
heading their way from state court.

App.20a
DISTRICT COURT OF SEMINOLE COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(SIGNED OCTOBER 23, 2020,
FILED OCTOBER 26, 2020)
IN THE DISTRICT COURT IN AND FOR
SEMINOLE COUNTY, STATE OF OKLAHOMA
________________________
KADETRIX DEVON GRAYSON,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Seminole County District Court Case No. CF-2015-370
Court of Criminal Appeals Case No. F-2018-1229
Before: Timothy L. OLSEN, District Court Judge.
DISTRICT COURT’S FINDINGS OF FACT
AND CONCLUSIONS OF LAW ON REMAND
FROM THE OKLAHOMA COURT
OF CRIMINAL APPEALS
STATEMENT OF THE CASE
Kadetrix Devon Grayson was tried by jury and
convicted in Case No. CF-2015-370, of Counts I and
II, First Degree Murder, and Count III, Possession of

App.21a
a Firearm After Former Conviction of a Felony. In
accordance with the jury’s recommendation, the
Honorable George Butner sentenced Mr. Grayson to
life imprisonment on each of Counts I and II, to run
consecutively, and ten (10) years imprisonment on
Count III, to run concurrently. On August 25, 2020,
the Oklahoma Court of Criminal Appeals ordered
this Court to hold an evidentiary hearing on Defendant/Appellant’s claim in Proposition III of his Brief of
Appellant, filed on June 27, 2019, alleging that under
18 U.S.C. § 1153 and McGirt v. Oklahoma, 140 S. Ct.
2452 (2020), the State of Oklahoma lacked jurisdiction to try him because he is a citizen of the Seminole
Nation and the crimes occurred within the boundaries
of the Seminole Nation Reservation.
This Court noticed the parties for hearing and
invited the Seminole Nation of Oklahoma to file a
brief regarding the important jurisdictional issue at
stake. The Seminole Nation filed an amicus curiae
Brief in Support of Mr. Grayson’s jurisdictional claim
on September 23, 2020.
On September 25, 2020, the Court conducted an
evidentiary hearing with the parties, counsel, and
the Seminole Nation present. The State of Oklahoma
appeared by and through District Attorney Paul Smith
and Assistant Attorneys General Theodore Peeper
and Joshua Fanelli. The Defendant/Appellant appeared
via Skype with counsel, Jamie Pybas, The Seminole
Nation appeared by and through counsel, Brett Stavin.
The Court heard arguments, accepted stipulations,
and received exhibits from the parties.
In the “Order Remanding for Evidentiary Hearing”
(Order), the Court of Criminal Appeals directed this
Court to address only the following two questions:

App.22a
First, Appellant’s Indian status. The District
Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized
as Indian by a tribe or by the federal government.
Second, whether the crime occurred in Indian
Country. The District Court is directed to
follow the analysis set out in McGirt, determining (1) whether Congress established a
reservation for the Seminole Nation, and (2)
if so, whether Congress specifically erased
those boundaries and disestablished the reservation. In making this determination the
District Court should consider any evidence
the parties provide including, but not limited
to, treaties, statutes, maps and/or testimony.
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
Based upon the stipulations and exhibits, as
well as argument of the parties, which included oral
argument from a representative of the Seminole
Nation, and review of the pleadings and briefs of
counsel, this Court makes the following findings of
fact and conclusions of law regarding the two issues
remanded for resolution.
I.

Does the Defendant/Appellant meet the
definition of an “Indian” for purposes of
criminal jurisdiction?

The first question this Court must resolve is
Kadetrix Grayson’s Indian status. The Court of
Criminal Appeals in its remand order set out the test
for whether Mr. Grayson is Indian for purposes of

App.23a
criminal jurisdiction. U.S. v. Diaz, 679 F.3d 1183, 1187
(10th Cir. 2012) and U.S. v. Prentiss, 273 F.3d 1277,
1279 (10th Cir. 2001). This Court must be satisfied
that Mr. Grayson has “some Indian blood” and is
“recognized as an Indian by a tribe or by the federal
government.” Diaz, 679 F.3d at 1187.
The parties stipulated that Kadetrix Devon
Grayson is an enrolled member of the Seminole
Nation, with a Seminole blood quantum of 1/4. His
Roll Number is 18454, and his date of enrollment is
September 29, 1994. (Joint Exhibit #1)
Based upon the stipulation, testimony, and statements of counsel, the test for Indian status is satisfied.
Defendant/Appellant has some degree of Indian blood
and is recognized as an Indian by the Seminole Nation
of Oklahoma, a federally recognized tribe. Therefore,
the Defendant/Appellant is an “Indian” for purposes
of determining criminal jurisdiction.
II. Did the crimes occur in “Indian Country” as
defined by the “McGirt” decision?
The second question this Court must answer is
whether under the analysis set out in McGirt, the
crimes at issue occurred in “Indian country.” In order
to answer this question, the court must determine
whether Congress established a reservation for the
Seminole Nation, and if so, whether Congress specifically erased those boundaries and disestablished the
reservation. The State takes no position as to the
facts underlying the existence, now or historically, of
the alleged Seminole Nation Reservation.

App.24a
A. Did Congress set aside a reservation for
the Seminole Nation of Oklahoma?
It is clear from the record before the Court that
Congress established a reservation for the Seminole
Nation of Oklahoma. The following facts are uncontroverted, based on the history provided by the
Seminole Nation and Defendant/Appellant.
Originally hailing from what is now the State of
Florida, the Seminoles began their forced westward
journey after the Treaty of Payne’s Landing. 7 Stat.
368 (1832) (Defendant’s Exhibit #2). The Payne’s
Landing Treaty was part of President Andrew Jackson’s
implementation of the Indian Removal Act, Pub. L.
21.148, 4 Stat. 411 (1830), which authorized the President to negotiate with the southeastern tribes for
their removal west of the Mississippi River. The
treaty provided that the Seminoles would “relinquish
to the United States, all claims to the lands they at
present occupy in the Territory of Florida, and agree
to emigrate to the country assigned to the Creek,
west of the Mississippi River.” 7 Stat. 368. Art. I.
One year after Payne’s Landing, the United States
entered into the Treaty with the Creeks, 7 Stat. 417
(1833 Treaty) (Defendant’s Exhibit #3). That treaty
was designed, in part, to “secure a country and permanent home to the whole Creek nation of Indians,
including the Seminole nation who are anxious to join
them. . . . ” Id., Preamble. To that end, the treaty stated
that “it is also understood and agreed that the
Seminole Indians . . . shall also have a permanent and
comfortable home on the lands hereby set apart as
the country of the Creek nation (emphasis added).”
Id. Art. IV. It provided further that “they (the Seminoles) will hereafter be considered a constituent part

App.25a
of said nation, but are to be located on some part of
the Creek country by themselves—which location
will be selected for them by the commissioners who
have signed these articles of agreement of convention.” Id. After examining the lands designated for
them, the Seminoles entered into a treaty with the
federal government confirming the Creek Treaty on
March 28, 1833. (Defendant’s Exhibit #4).
The arrangement created by the 1833 Treaty,
whereby the Seminoles were to be “considered a constituent part of the Creek Nation, brought about
tension between the two tribes. The Seminoles did not
desire to be a “constituent” of the Creek Nation, as they
were their own sovereign government. They wished to
have genuine political autonomy, entirely separate
from the Creeks. Continued dissensions resulted in the
need for a new treaty, which was entered into on
August 7, 1856. 11 Stat. 699 (Defendant’s Exhibit #5).
The 1856 Treaty was intended to bring peace among
the two tribes. Among its other provisions, Article 1
defined specific boundaries for the Seminoles, described
as:
[B]eginning on the Canadian River, a few
miles east of the ninety-seventh parallel of
west longitude, where Ock-hi-appo, or Pond
Creek, enters Into the same; thence, due
north to the north fork of the Canadian;
thence up said north fork of the Canadian to
the southern line of the Cherokee country;
thence, with that line, west, to the one
hundredth parallel of west longitude; thence,
south along said parallel of longitude to the
Canadian River, and thence down and with
that river to the place of beginning.”

App.26a
11 tat, 699, Art. 1.
But the 1856 Treaty territory would not remain
their homeland for long. Ten years later, the United
State and the Seminoles entered into yet another
treaty. See Treaty with the Seminoles, 14 Stat. 755
(1866) (Defendant’s Exhibit #6). By this time, the Civil
War had just ended. There was a tense relationship
between the Seminoles and the federal government,
as most of the Seminoles had aligned with the
Confederacy during the war. Meanwhile, on top of
the complications brought on by the Reconstruction,
westward expansion continued its relentless pace.
Settlers demanded more land, and Congress accommodated. Thus, while the 1866 Treaty was in part
designed to make peace between the Nation and the
federal government, as more germane to this proceeding, it also redefined the Nation’s reservation territory
—this time, with a much smaller land base. See 14
Stat. 755 (1866).
Under Article 3 of the 11366 Treaty, the Seminoles agreed to “cede and convey to the United States
their entire domain” that had previously been guaranteed to them ‘under the 1856 Treaty. Id. Art 3. in
return, they were paid a fixed sum of $325,362.00, or
fifteen cents per acre.
Article 3 then established a new reservation for
the Seminoles, made of lands that the United States
had just recently acquired from the Creeks. It was
defined this way;
The United States having obtained by grant
of the Creek Nation the westerly half of
their lands, hereby grant to the Seminole
Nation the portion thereof hereafter described,

App.27a
which shall constitute the national domain
of the Seminole Indians. (emphasis added)
Beginning on the Canadian River where the
line dividing the Creek lands according to
the terms of their sale to the United States
by their treaty of February 6, 1866, following
said line due north to where said line crosses
the north fork of the Canadian River; thence
up said fork of the Canadian River a distance
sufficient to make two hundred thousand
acres by running due south to the Canadian
River; thence down said Canadian River to
the place of beginning.
Of course, in granting the Seminoles a “national
domain,” the 1866 Treaty does not use the word
“reservation.” But the presence of that exact word
has never been a prerequisite to finding that Congress
indeed created a reservation. See McGirt, 140 S. Ct.
at 2461 (noting that in 1866 ‘‘that word had not yet
acquired such distinctive significance in federal Indian
law”); e.g., Menominee Tribe of Indians v. United States,
391 U.S. 404 (1968) (reservation created when Congress provided for “a home, to be held as Indian lands
are held”). In any event, even if the particular word
“reservation” was not in the 1866 Treaty, Congress’s
intent to create a reservation for the Seminoles can
be seen in subsequent legislation. E.g., Act of March
3, 1891, 26 Stat. 989, 1016 (1891) (referencing the
“western boundary line of the Seminole Reservation”);
see also 11 Cong. Rec. 2351 (1881) (referring to the
Creek and Seminole “reservations”). Accordingly, just as
the 1866 Treaty with the Creeks established a reservation, so too did the 1866 Treaty with the Seminoles.

App.28a
As this definition indicates, to ascertain the exact
metes and bounds of this new reservation, it was
necessary to first identity “the line dividing the
Creek lands according to the terms of their sale to
the United States.” Unfortunately, it would prove
difficult for the United States to accurately locate
that boundary.
The dividing line was originally drawn by a
surveyor named Rankin in 1867, but this survey was
never approved by the Department of the Interior.
Instead, in 1871, another surveyor, Bardwell, placed
the dividing line seven miles west of the Rankin line.
The Department adopted the Bardwell line, and the
dimensions were measured based on that starting
point. In the meantime, however, it seemed that a
number of Seminoles had settled and “made substantial
improvements” on lands to the east of the Bardwell
line, i.e., in what appeared to be Creek territory. See
Seminole Nation v. United States, 316 U.S. 310,
313 (1942). Seeking an equitable solution, the United
States decided to purchase those lands for the
Seminoles. Consequently, in a purchase negotiated
in 1881, the Creeks were paid $175,000—a dollar per
acre—and the extra land became part of the Seminole
Reservation. Id.; see also 22 Stat. 257, 265 (1882).
It is this Reservation—first defined in the 1866
Treaty and then supplemented with the 1881 land
purchase from the Creeks—that constitutes the
Seminole Nation of Oklahoma Reservation.

App.29a
B. Did Congress specifically erase the
reservation boundaries and disestablished
the Seminole Nation Reservation?
McGirt affirmed a longstanding tenet of federal
Indian law; once a reservation is established, only
Congress can disestablish that reservation, and to do
so, it “must clearly express its intent to do so,
commonly with an explicit reference to cession or
other language evidencing the present and total
surrender of all tribal interests.” 140 S. Ct. at 2463.
Here, because Congress has not explicitly indicated
an intent to disestablish the Seminole Reservation—
by language of cession or otherwise—it remains intact.
(i) Allotment did not disestablish the
Reservation.
Starting in the 1880s, Congress embraced a policy
of allotting tribal lands, through which it sought to
“extinguish tribal sovereignty, erase reservation boundaries, and force the assimilation of Indians into the
society at large.” County of Yakima v. Confederated
Tribes & Bands of the Yakima Indian Nation, 502
U.S. 251, 254 (1992). The policy of allotment was
eventually repudiated in 1934 with the passage of the
Indian Reorganization Act, 48 Stat. 984, but not before
it had reached the Seminole Nation. Still, although
allotment did ultimately result in the much Seminole
land passing into non-Indian hands, it did not disestablish the Reservation.
In 1893, Congress formally authorized allotment
of the Five Tribes’ reservations. Act of March 3, 1893,
27 Stat. 612, at 645 (Defendant’s Exhibit #9). Negotiations were delegated to the Dawes Commission,
which reached an agreement with the Seminoles

App.30a
on December 16, 1897, ratified by Congress on July
1, 1898, 30 Stat. 567 (Defendant’s Exhibit #10). The
agreement created three classes of land, to be appraised
at $5, $2.50, and $1.25 per acre, respectively. Id. Each
tribal member would be allotted a share of land of
equal value, for which they would have the sole right
of occupancy. Id. Allotments were inalienable until
the date of patent, though leases were allowed under
some conditions.
Importantly, nothing in either the statute authorizing allotment or the resulting agreement contained
any of the hallmarks of disestablishment. There was
no language of cession, no mention of a fixed sum in
return for the total surrender of tribal claims, or any
other textual evidence of intent to disestablish the
Seminole Reservation. To be sure, the congressional
policy of allotment itself might have been intended to
‘create the conditions for disestablishment,” but as
McGirt explains, to equate allotment with disestablishment would confuse the first step of a march with
arrival at its destination.” 140 S. Ct. at 2465: see also
Mettz v. Arnett, 412 U.S. 481, 497 (1973) (explaining
that allotment “is completely consistent with continued
reservation status.”). Accordingly, the Seminole Reservation maintained its existence during and after the
allotment process.
(ii) Restrictions on tribal sovereignty
did not disestablish the Reservation.
The Seminole Nation acknowledges that Congress
has taken measures in the past that have restricted
the Nation’s sovereignty—indeed, even contemplated
the extinguishment of the Nation’s government

App.31a
altogether-but none of those actions evinced any
explicit intent to disestablish the Reservation.
Of course, there were numerous actions on Congress’s part that put dents in the Nation’s rights to
self-governance. Most threatening of all of Congress’s
campaigns against Seminole sovereignty was the Act
of March 3, 1903, which explicitly contemplated that
“the tribal government of the Seminole Nation shall
not continue longer than (March 4, 1906],” 34 Stat.
982, 1008 (1903) (Defendant’s Exhibit #12). But when
that date came about, Congress took a different path,
enacting what would be known as the Five Tribes
Act. Instead of terminating the Seminole Nation’s
government, the Act expressly recognized “[t]hat the
tribal existence and present tribal government” of
the Seminole Nation “continued in full force and effect
for all purposes authorized by law.” Five Tribes Act,
34 Stat. 137, 148 (1906) (Defendant’s Exhibit #13).
Granted, the Five Tribes Act did restrict various
tribal governmental powers (e.g., by prohibiting the
tribal council from meeting more than thirty days
per year) but it stopped far short of terminating the
Nation altogether—and it certainly did not provide
any language expressly indicating an intent to disestablish the Reservation.
In short, it is beyond dispute that Congress has
not always lived up to its trust responsibilities to
the Nation, and that discrete aspects of the Nation’s
sovereignty have been targeted from time to time.
But that is not enough to take away the Nation’s
very home. As Justice Gorsuch put it: “[I]t’s no matter
how many other promises to a tribe the federal
government has already broken. If Congress wishes
to break the promise of a reservation, it must say

App.32a
so.” id. at 2462. Here, as evident from every relevant
Act of Congress referencing the Seminole Nation,
Congress has not done so.
(iii) Oklahoma’s statehood did not disestablish the Reservation.
Shortly after Congress expressly preserved the
Seminole Nation’s government, it passed the Oklahoma Enabling Act, 34 Stat. 267 (1906), paving the
way for Oklahoma statehood. But like every other
congressional statute that might potentially be cited
by the State, nothing in the Oklahoma Enabling Act
contained any language suggesting that Congress
intended to terminate the Seminole Reservation.
In fact, if anything, the Oklahoma Enabling Act
shows that Congress intended that Oklahoma statehood shall not interfere with existing treaty obligations
(i.e., reservations). The Act explicitly prohibited
Oklahoma’s forthcoming constitution from containing
anything that could be construed as limiting the
federal government’s role in Indian affairs, e.g., its
authority “to make any law or regulation respecting
such Indians.” 34 Stat. at 267.
Ultimately, because no Act of Congress bears any
of the textual evidence of intent to disestablish the
Seminole Reservation, it simply does not matter that
Oklahoma has undergone changes since 1866. Nor does
it matter that State officials might have presumed
for the last hundred or so years that the Seminole
Reservation no longer exists.
Following the analysis in McGirt v. Oklahoma,
140 S. Ct. 2452 (2020), as it applies to the Seminole
Nation’s own legal and historical background, makes

App.33a
it clear that Congress never specifically erased the
boundaries and/or otherwise disestablished the Seminole Reservation, Therefore, the reservation established
by Congress for the Seminole Nation of Oklahoma
exists to this day.
C. What are the boundaries of the Seminole
Nation Reservation?
The parties stipulated to the current boundaries
of the Seminole Nation of Oklahoma. (Joint Exhibit
#1) The map attached to the Seminole Nation’s brief
as Exhibit “A” is adopted by the Court.
Specifically, the Reservation boundaries mainly
track the borders of Seminole County, with a slight
deviation. County lines were defined in the Oklahoma
Constitution, with Seminole County described as
follows:
Beginning at a point where the east boundary
line of the Seminole nation intersect the
center line of the South Canadian River;
thence north along the east boundary line of
said Seminole nation to its intersection with
the township line between townships seven
and eight North; thence east along said
township line to the southwest corner of
section thirty-five, township eight North,
range eight East; thence north along the
section line between sections thirty-four and
thirty-five, in said township and range,
projected to its intersection with the center
line of the North Canadian River; thence
westward along the center line of said river
to its intersection with the east boundary line
of Pottawatomie County; thence southward

App.34a
along said east boundary line to its intersection with the center line of the South
Canadian River; thence down along the center
line of said river to the point of beginning.
Wewoka is hereby designated the County
Seat of Seminole County.
Okla. Const., Art. 17, § 8.
As the constitutional description shows, the
boundaries of Seminole County are defined largely
by reference to the Seminole Reservation boundaries.
The deviation lies in the northeastern region. County
lines depart from the Reservation border beginning
at the point where the Reservation’s eastern boundary
intersects with the line between townships seven and
eight north (just southwest of the intersection of
East/West Rd. 131 and State Highway 56). From
that point, the County line runs due east for slightly
less than three miles (until reaching the southwest
corner of section 35 of Township 8 North, Range 8
East). Then the County line runs due north until the
midpoint of the North Canadian River, at which point
the County line runs along the river back toward the
Seminole Nation. The map attached to the Seminole
Nation Brief as Exhibit A displays both the County
lines and the Reservation boundaries.
The State of Oklahoma and Defendant/Appellant
entered into a stipulation agreeing that the location
of the commission of the crimes at issue was within
the historical boundaries of the Seminole Nation of
Oklahoma (Joint Exhibit #1).

App.35a
CONCLUSION
In accordance with the stipulation of the parties,
testimony, exhibits and statements of counsel, this
Court finds that
1. The Defendant/Appellant is an “Indian” as
defined by the Oklahoma Court of Criminal Appeals.
2. By applying the analysis set out in McGirt,
Congress established a reservation for the Seminole
Nation of Oklahoma.
3. By applying the analysis set out in McGirt,
Congress has not specifically erased the reservation
boundaries and disestablished the Seminole Nation
Reservation.
4. The Seminole Nation of Oklahoma is “Indian
Country” for purposes of criminal law jurisdiction.
5. The Crimes that Defendant/Appellant was
convicted of occurred in Indian Country.
Dated this 23rd day of October, 2020
/s/ Timothy L. Olsen
Judge of the District Court

App.36a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 25, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
KADETRIX DEVON GRAYSON,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2018-1229
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Kadetrix Devon Grayson was tried by jury and
convicted of Counts I and II, First Degree Murder,
and Count III, Possession of a Firearm After Former
Conviction of a Felony, in the District Court of
Seminole County, Case No. CF-2015-370. In accordance
with the jury’s recommendation the Honorable George

App.37a
Butner sentenced Appellant to life imprisonment on
each of Counts I and II, to run consecutively, and ten
(10) years imprisonment on Count III, to run concurrently. Appellant must serve 85% of his sentences on
Counts I and II before becoming eligible for parole
consideration. Appellant appeals from these convictions
and sentences.
In Proposition III Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Seminole Nation and the
crimes occurred within the boundaries of the Seminole
Nation. Appellant relies on 18 U.S.C. § 1153 and
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
Appellant’s claim raises two separate questions:
(a) his Indian status, and (b) whether the crime
occurred in Indian Country. These issues require
fact-finding. We therefore REMAND this case to the
District Court of Seminole County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to Appellant’s legal status
as an Indian, and as to the location of the crime in
Indian Country, the burden shifts to the State to
prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall

App.38a
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, Appellant’s Indian status. The District
Court must determine whether (1) Appellant has
some Indian blood, and (2) is recognized as Indian by
a tribe or by the federal government.1
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Seminole
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
an/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
1 See, e.g., United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.39a
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following,
with this Order, to the District Court of Seminole
County: Appellant’s Brief in Chief filed June 27, 2019;
Appellant’s Reply Brief filed September 11, 2019; and
Appellee’s Response Brief, filed August 22, 2019.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 25th day of August, 2020.

App.40a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

